               Department of Veterans Affairs
               Office of Inspector General



                    Office of Healthcare Inspections

Report No. 13-03862-35



         Healthcare Inspection 

   Emergency Department Length of 

    Stay and Call Center Wait Times 

   VA Eastern Colorado Health Care 

               System, 

           Denver, Colorado 





December 23, 2013

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
  ED Length of Stay and Call Center Wait Times, VA Eastern Colorado Health Care System, Denver, CO



                                 Executive Summary 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted
an inspection to assess the validity of allegations regarding the Emergency Department
(ED) and the Health Information Call Center (Call Center) at the VA Eastern Colorado
Health Care System (facility), Denver, CO.
VA OIG’s Hotline Division received the following allegations: the ED “needs help,” wait
times exceeded 8 hours, and a patient was treated discourteously and afraid to return;
and staffing issues at the Call Center caused long call waiting times and callers dropped
out because they grew tired of waiting. During this review, we received an additional
allegation that another ED patient was treated discourteously.
We did not substantiate the allegation that the ED “needs help.” While we found some
ED wait times (length of stay [LOS]) exceeded 8 hours, we determined the facility met
VHA’s target of less than 10 percent of patients with a LOS over 6 hours. We did not
substantiate the allegation that ED staff treated two patients discourteously, or that one
of the patients was afraid to return to the ED due to alleged discourteous treatment.

We substantiated the allegations that Call Center understaffing caused long call waiting
times and callers to abandon calls. We found 40 percent of the Call Center’s authorized
registered nurse, medical support assistant, and pharmacy technician positions were
vacant and determined that inadequate staffing contributed to the Call Center’s failure to
meet VHA targets for caller response time and call abandonment rates. We also found
that calls were dropped due to the telephone system’s 120-line limitation, and callers
who used the automated call return system did not always receive a return call. An
upgrade of the phone system is not planned until FY 2016 when the facility relocates.
Additional staff and an upgraded system should eliminate the 120-line limitation and
reduce callback system failures.

We recommended that the Veterans Integrated Service Network and Facility Directors
ensure processes are strengthened to improve Health Information Call Center practices
and staffing levels.

Comments The Veterans Integrated Service Network and Facility Directors
concurred with our recommendations and provided an acceptable action plan. (See
Appendixes A and B, pages 8–11 for the Directors’ comments.) We will follow up on the
planned actions until they are completed.




                                                          JOHN D. DAIGH, JR., M.D.
                                                         Assistant Inspector General for
                                                           Healthcare Inspections




VA Office of Inspector General                                                                   i
    ED Length of Stay and Call Center Wait Times, VA Eastern Colorado Health Care System, Denver, CO



                                               Purpose 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted
an inspection to assess the validity of allegations regarding the Emergency Department
(ED) and the Health Information Call Center (Call Center) at the VA Eastern Colorado
Health Care System, Denver, CO (facility).

                                           Background 

The facility provides primary, tertiary, and long-term care with a broad range of inpatient
and outpatient health care services. It is part of Veterans Integrated Services Network
(VISN) 19 and serves a veteran population of about 350,000 throughout the Front
Range of Colorado and into Wyoming. During fiscal year (FY) 2013, 28,109 patients
presented for care at the facility’s 11 bed ED. VHA plans to relocate the facility to a
replacement facility scheduled to open in FY 2016.

VHA requires that a registered nurse (RN) triages all patients who present to the ED
                                                                          ,
and assigns acuity levels based on the Emergency Severity Index (ESI).1 2 The ESI is a
five-level algorithm that categorizes acuity and expected resource needs into five
groups from 1 (requires immediate, life-saving intervention) to 5 (non-urgent).

VHA requires that EDs use Emergency Department Integration Software (EDIS).3 EDIS
allows staff to record and track ED patients. Recorded information includes patient
arrival and disposition (discharge, transfer, admission) time, and is broken down into
4-hour increments. The time elapsed from arrival to disposition is referred to as length
of stay (LOS). VHA’s LOS target is for 10 percent or less of patients to have a LOS
greater than 6 hours.4 For our evaluation, we used a 4-hour LOS benchmark due to the
software timing features.

VHA requires that facilities provide access to telephone services for clinical care
24 hours a day, 7 days a week.5 Patients accessing the telephone service receive
assistance with managing appointments and resolving pharmacy issues, as well as
receive health care information, advice, and education. VHA’s Call Center targets
include 30-second average answer times and less than 5 percent call abandonment.6



1
  VHA Handbook 1101.05, Emergency Medicine Handbook, May 12, 2010. 

2
  Gilboy N, Tanabe T, Travers D, Rosenau AM, Emergency Severity Index (ESI): A Triage Tool for Emergency 

Department Care, Version 4: Implementation Handbook 2012 Edition, AHRQ Publication No. 12-0014, Rockville, 

MD, Agency for Healthcare Research and Quality, November 2011. 

3
  VHA Directive 2011-029, Emergency Department Integration Software (EDIS) for Tracking Patient Activity in

VHA Emergency Departments and Urgent Care Clinics, July 15, 2011. 

4
  VHA Quality Metrics; Day, Theodore E. et al, Decreased Length of Stay After Addition of Healthcare Provider in

Emergency Department Triage, Emergency Medicine Journal, 2013;30(2):134-138. 

5
  VHA Directive 2007-033, Telephone Service for Clinical Care, October 11, 2007. 

6
  Ibid. URAC (Utilization Review Accreditation Committee) is the accrediting body for medical telephone Call 

Centers. 



VA Office of Inspector General                                                                                 1
    ED Length of Stay and Call Center Wait Times, VA Eastern Colorado Health Care System, Denver, CO


In July 2013, VA OIG’s Hotline Division received the following allegations: the ED
“needs help,” wait times exceeded 8 hours, a patient was treated discourteously and
afraid to return, and staffing issues at the Call Center caused long call waiting times and
callers dropped out because they were tired of waiting.
In August, 2013, we received an additional allegation that another ED patient was
treated discourteously.

                             Scope and Methodology 

On September 19, 2013, we conducted a site visit and toured the ED. We interviewed
facility leadership, quality and risk management staff, medical administrative services
staff, pertinent clinical staff, ED and Call Center managers, staffing coordinators, and
the patient advocate. We reviewed patient electronic health records, facility policies and
VHA directives, ED and Call Center staffing and hiring data, EDIS and Call Center call
wait time logs and tracking data, VHA Support Service Center (VSSC) data, relevant
articles from the medical literature, and quality management and patient advocate
documentation.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.

                                   Inspection Results 

Issue 1: Emergency Department

Staffing: We did not substantiate the allegation that the ED “needs help.” During
interviews, the ED Manager and ED Director told us they believed the authorized ED
full-time employee equivalents (FTE) were adequate. We reviewed ED staffing
documents and learned there were 9.9 authorized physician and 18 authorized RN FTE.
At the time of our review, all physician FTE were staffed and there were five RN
vacancies. We determined that the facility actively advertised when vacancies occurred
and at the time of our review, had hired RNs for four of the five vacancies, although the
new staff had not yet reported for duty. We reviewed staffing schedules and found the
ED manager maintained RN staffing levels using experienced, local agency RNs as
needed and the ED had at least two RNs available at all times as required by VA
policy.7




7
 VHA Directive 2010-010, Standards for Emergency Department and Urgent Care Clinic Staffing Needs in VHA
Facilities, March 2, 2010.


VA Office of Inspector General                                                                             2
    ED Length of Stay and Call Center Wait Times, VA Eastern Colorado Health Care System, Denver, CO


Length of Stay: While we found some ED wait times exceeded 8 hours, we determined
the percentage of patients with a LOS over 4 hours (8.6 percent) was below VHA’s
target.8

Local policy requires that patients triaged as ESI levels 1 or 2 receive immediate ED
interventions. To decrease the LOS, ESI level 3 patients (patients with limited urgent
needs such as sutures or ankle sprains) may be treated in the ED Fast Track program,
which is staffed by a dedicated physician. Patients triaged as ESI levels 4 and 5 may
also be treated in the Urgent Care Clinic, if they present during opening hours, Monday-
Friday, 7:00 a.m. to 5:00 p.m.

The VHA target for ED LOS is for no more than 10 percent of patients to experience a
LOS greater than 6 hours. For our evaluation, we used a 4-hour LOS benchmark due
to software timing features. We reviewed FY 2013 EDIS LOS data and ED patient
tracking information and found that some patient LOS times did exceed 8 hours;
however, on average, only 8.6 percent of the patients had a LOS greater than 4 hours.
FY 2013 EDIS data also revealed ED patients at the facility are triaged, seen by a
physician, admitted, and discharged faster than national VHA averages. Additionally,
fewer ED patients chose to leave without being seen than the national VHA average.

Two patient deaths occurred in the ED during FY 2013. We reviewed the electronic
health records and determined the deaths were not attributed to LOS.

We also reviewed patient advocate documentation related to FY 2013 ED LOS
complaints. Of the 28,109 patients who presented for care at the ED, 58 patients
registered a patient advocate complaint regarding the care they received while in the
ED. Five of the 58 complaints concerned LOS. None of the complaints concerned a
wait that was greater than 5 hours and there was no indication the patients were injured
or sought care at another ED due to the wait.

Courtesy: We did not substantiate the allegation that ED staff treated two patients
discourteously causing one to be afraid to return. One patient’s medical history
included depression and anxiety diagnoses. Electronic health record documentation
included multiple ED encounters and Call Center interactions and notes recording or
stating that the patient expressed fear of the ED to Call Center staff and fear of Call
Center staff to ED providers. Documentation indicated the patient was not deterred
from further ED visits and Call Center calls after verbalizing fears. Patient advocate
documentation did not indicate the patient reported concerns related to discourtesy or
fear. The other patient’s medical history included terminal cancer. The patient’s family
member filed a complaint with the patient advocate that concerned care received in the
ED; however, the complaint concerned pain management, not discourtesy.




8
 By meeting the stricter benchmark of 4 hours that we used because of EDIS timing features, the facility was well
within VHA’s target of 6 hours.


VA Office of Inspector General                                                                                 3
    ED Length of Stay and Call Center Wait Times, VA Eastern Colorado Health Care System, Denver, CO


Issue 2: Health Information Call Center

We substantiated the allegations that Call Center understaffing issues caused long call
wait times and callers to abandon calls. In addition, we found that calls were dropped
due to the facility’s telephone system 120-line limitation and that callers who used the
automated call return system did not always receive a return call.

Call Center RNs, medical support assistants (MSA), and pharmacy technicians answer
calls Monday-Friday between 8:00 a.m. and 4:00 p.m.9 During FY 2013, the Call
Center received 52,563 calls. At the time we received this complaint, callers first
encountered an automated telephone menu system that asked the caller to select an
option that met their needs (speak to a nurse, schedule or cancel an appointment, or
ask a medication question). If the target staff phone lines were busy, the system placed
the caller on hold in a queue. On August 23, the Call Center implemented a live
“greeter” process, which replaced the automated menu system. Live greeters currently
answer all incoming calls within 2 seconds, briefly speak to the caller, and transfer the
call to the appropriate queue. MSAs address approximately 75 percent of all Call
Center calls by addressing scheduling needs, transferring calls to clinics, and providing
directions. If the caller’s concern requires an RN, the MSA transfers the patient to the
RN line and, if all RN lines are busy, the caller is again placed in a queue.

The telephone system has a callback feature. Callers on hold are informed of the
approximate wait time and advised they have an option to leave a recorded message
and receive a return phone call without losing their place in the queue. When callers
select the return call option and their call becomes the next to be answered, an RN Call
Center staff sees a computer screen message and the system calls the veteran.

Call Center Staffing: The Call Center had the following authorized FTE: 13 MSA,
11.5 RN, and 9.5 pharmacy technician. Of these authorized positions, there were
7 MSA vacancies, 3.5 RN vacancies, and 3.5 pharmacy technician vacancies. During
interviews, the Call Center director and manager told us the process to hire and bring
on new Call Center staff was slow and by the time a qualified applicant was accepted
for a position, the applicant was often no longer interested in the job. At the time of our
review, applicants selected in April 2013 to fill RN vacancies had not been offered a
position. Additionally, we did not find evidence that the facility had pursued alternate
solutions such as re-assignment or interim staffing.

Call Response Time and Caller Abandonment: Because the Call Center was not fully
staffed and did not have a resource for temporary staff, Call Center staff were unable to
adequately address the volume of calls. During the course of our interviews, we
learned it was not unusual to have over 20 callers in the RN queue.

VHA’s goal is that a caller should first talk to a person (response time) in 30 seconds or
less and the call abandonment rate should be less than or equal to 5 percent. The


9
 Calls received outside of the Call Center’s operating hours are routed to VISN 10 and 11 Call Centers and are not a
subject of this complaint.


VA Office of Inspector General                                                                                    4
      ED Length of Stay and Call Center Wait Times, VA Eastern Colorado Health Care System, Denver, CO


facility’s Call Center FY 2013 call response and call abandonment data did not meet
goals. Specifically, the FY 2013 average call response time was 354 seconds with a
monthly range from 129 to 651 seconds and the FY 2013 call abandonment rate was
21.3 percent with a monthly range from 8 to 34.8 percent. We tested the Call Center on
3 random days prior to the facility’s transition to live greeters. We selected the menu
option to speak to an RN and found the following:
      Date        Time             Estimated Wait           Calls Ahead                  Actual Wait

     August 6    2:13 pm      16 minutes (960 seconds)           24         13 minutes, 15 seconds (795 seconds)

 August 13      10:00 am      12 minutes (720 seconds)           18         12 minutes, 30 seconds (750 seconds)

 August 16       8:00 am      5 minutes (300 seconds)             2         5 minutes, 10 seconds (310 seconds)



Telephone Caller System Limitations: During this review, we learned the automated call
system dropped calls if call lines exceed the 120 active line limit. During our interviews,
we also found those who used the automatic return call feature did not always receive
the return call.

Call Center Caller Satisfaction: Patient advocate documentation contained Call Center
complaints related to wait times, dropped calls, and return calls not being processed
when a caller selects that feature. The patient advocate also documented that Call
Center staff were aware of the problems and had notified the telephone system vendor.

                                           Conclusions 

We did not substantiate the allegation that the ED “needs help.” While we substantiated
the allegation that some ED wait times exceeded 8 hours, we determined the
percentage of patients with a LOS over 4 hours (8.6 percent) during FY 2013 was below
the VHA target.10 We did not substantiate the allegation that ED staff treated two
patients discourteously, or that one of the patients was afraid to return to the ED due to
alleged discourteous treatment.

We substantiated the allegations that Call Center understaffing issues caused long call
wait times and callers to abandon calls. In addition, we found that calls were dropped
due to the facility’s telephone system 120-line limitation and that callers who used the
automated call return system did not always receive a return call.

Call Center staff told us they believed better staffing and a new telephone call system
would reduce wait times and improve callers’ experiences. The Call Center has
advertised to fill vacant FTE. An upgrade of the phone system is not planned until FY
2016 when the facility relocates. Additional staff and an upgraded system should
reduce dropped calls and callback system failures.


10
  By meeting the stricter benchmark of 4 hours that we used because of EDIS timing features, the facility was well
within VHA’s target of 6 hours.


VA Office of Inspector General                                                                                  5
  ED Length of Stay and Call Center Wait Times, VA Eastern Colorado Health Care System, Denver, CO



                                 Recommendation 

1. We recommended that the Veterans Integrated Service Network and Facility
Directors ensure processes be strengthened to improve Health Information Call Center
practices and staffing levels.




VA Office of Inspector General                                                                  6
  ED Length of Stay and Call Center Wait Times, VA Eastern Colorado Health Care System, Denver, CO
                                                                                      Appendix A
                            VISN Director Comments



               Department of
               Veterans Affairs                                   Memorandum


     Date: December 6, 2013

    From: Director, Rocky Mountain Network (10N19)

  Subject:	 Healthcare Inspection-Emergency Department Length of Stay and Call
            Center Wait Times, VA Eastern Colorado Health Care System, Denver, CO

        To: Director, Kansas City Office of Healthcare Inspections (54KC)
             Director, Management Review Service (VHA 10AR MRS OIG
              Hotline)

           1. Attached is the response from VA Eastern Colorado Health Care
              System (ECHCS) to the OIG Healthcare Inspection – Emergency
              Department Length of Stay and Call Center Wait Times.

           2. The facility acted upon the opportunities for improvement prior to
              the review, and continues to address the opportunities since the
              review. The facility continues to pursue the hiring processes to fill
              vacant Call Center positions. The Call Center equipment upgrade
              feasibility study will not be concluded until March 2014. At that time,
              ECHCS leadership will determine the next steps of phone system
              replacement.




           (original signed by:)

             Ralph Gigliotti




VA Office of Inspector General                                                                  7
  ED Length of Stay and Call Center Wait Times, VA Eastern Colorado Health Care System, Denver, CO
                                                                                      Appendix B
                         System Director Comments



               Department of
               Veterans Affairs                                   Memorandum


     Date: December 6, 2013

     From: Director, VA Eastern Colorado Health Care System (554/00)

 Subject: 	Healthcare Inspection-Emergency Department Length of Stay and Call
           Center Wait Times, VA Eastern Colorado Health Care System, Denver, CO

       To: Director, Rocky Mountain Network (10N19)

         1. I concur with the recommendation from the Healthcare Inspection
            conducted in September 2013. The recommendation covers an area
            of opportunity for improvement.

         2. Eastern C  	 olorado Health Care System (ECHCS) leadership
            continues to monitor processes and outcomes, and take action when
            indicated, regarding the Call Center opportunities for improvement.

         3. ECHCS had previously identified the need for additional staffing
            within our Call Center. In February 2013, leadership approved the
            recommended plan to hire additional Medical Support Assistants
            (MSA), Registered Nurses (RN), and Pharmacy Technicians. We
            expect the approved vacant positions to be filled by the end of
            February 2014. If the hiring processes do not proceed as planned,
            agency staff for MSA & RN positions will be utilized.

         4. As stated in the conclusions of the report, our facility plans to upgrade
            the Call Center phone system. Replacement of the system is planned
            in 2016 as ECHCS transitions to the replacement facility. Due to the
            leadership’s concern over the volume of dropped calls, a review was
            initiated to determine the cost effectiveness of upgrading prior to
            2016. The review will require an in depth study by our VISN and
            Regional OI&T to determine the feasibility of accomplishing transition
            prior to 2016. We anticipate having the results of the feasibility study
            by March 2014. At that time, ECHCS leadership will determine the
            feasibility of upgrading the system.




VA Office of Inspector General                                                                  8
  ED Length of Stay and Call Center Wait Times, VA Eastern Colorado Health Care System, Denver, CO




         5. For a
                	 dditional information, please contact Ann Jodway, Risk
            Manager, ECHCS at (720) 857-5027 or at Ann.Jodway@va.gov.



             (original signed by:) 


            Lynette A. Roff 


            Director, Eastern Colorado Health Care System (554/00) 





VA Office of Inspector General                                                                  9
  ED Length of Stay and Call Center Wait Times, VA Eastern Colorado Health Care System, Denver, CO



                         Comments to OIG’s Report
The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the Veterans Integrated Service Network
and Facility Directors ensure processes be strengthened to improve Health Information
Call Center practices and staffing levels.

Concur

Target date for completion: 02/28/2014 - Call Center Vacant Positions Filled

Facility response:

ECHCS had previously identified the need for additional staffing within the Call
Center. In February 2013, leadership approved the recommended plan to hire
additional Medical Support Assistants (MSA), Registered Nurses (RN), and Pharmacy
Technicians. It is anticipated the approved vacant positions will be filled by the end of
February 2014. If the hiring processes do not proceed as planned, agency staff for
MSA & RN positions will be utilized.

Target date for completion: 03/31/2014 - Phone System Upgrade Feasibility Study

Facility response:

The facility plans to upgrade the Call Center phone system. Replacement of the system
is planned in 2016 as ECHCS transitions to the replacement facility. Due to the
leadership’s concern over the volume of dropped calls, a review was initiated to
determine the cost effectiveness of upgrading prior to 2016. The review will require an
in depth study by our VISN and Regional OI&T to determine the feasibility of
accomplishing transition prior to 2016. We anticipate having the results of the feasibility
study by March 2014. At that time, ECHCS leadership will determine the feasibility of
upgrading the system.




VA Office of Inspector General                                                                 10
  ED Length of Stay and Call Center Wait Times, VA Eastern Colorado Health Care System, Denver, CO
                                                                                      Appendix C

                 OIG Contact and Staff Acknowledgments
Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720.
Contributors             Laura Dulcie, BSEE
                         Stephanie Hensel, RN, JD
                         George Wesley, MD




VA Office of Inspector General                                                                  11
  ED Length of Stay and Call Center Wait Times, VA Eastern Colorado Health Care System, Denver, CO
                                                                                      Appendix D

                                 Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, Rocky Mountain Network (10N19)
Director, VA Eastern Colorado Health Care System (554/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
Senate Committee on Homeland Security and Governmental Affairs
Related Agencies
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Michael Bennet and Mark Udall
U.S. House of Representatives: Mike Coffman, Diana DeGette, Cory Gardner,
Doug Lamborn, Ed Perlmutter, Jared Polis, and Scott Tipton



This report is available on our web site at www.va.gov/oig




VA Office of Inspector General                                                                  12
